La
I

@OCKLE

- E-Mail Address:
Le ga | Briefs contact@cocklelegalbriefs.com

2311 Douglas Street

Omaha, Nebraska 68102-1214
Est. 1923

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 20-440

MINERVA SURGICAL, INC.,
Petitioner,
v.
HOLOGIC, INC., CYTYC SURGICAL PRODUCTS, LLC,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF ENGINE
ADVOCACY AS AMICUS CURIAE IN SUPPORT OF PETITIONER in the above entitled case
complies with the typeface requirement of Supreme Court Rule 33.1(b), being prepared in New
Century Schoolbook 12 point for the text and 10 point for the footnotes, and this brief contains
4949 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 26th day of February, 2021.
Iam duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY-State of Nebraska z 2 5 Z
i RENEE J. GOSS 9. Qudraw %

 

My Comm. Exp. September 5, 2023

 

Notary Public Affiant 40698
